Case No. _____________

In The
Supreme Court of the United States

DERRICK KENNEDY CRUMPTON,
Petitioner,
v.

UNITED STATES OF AMERICA
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE

The undersigned, appointed counsel under the Criminal Justice Act, certifies
that on this the 5th day of October 2020, pursuant to Supreme Court Rule 29.3, he
served Derrick Kennedy Crumpton’s Motion for Leave to Proceed in Forma
Pauperis and Petition for Writ of Certiorari by both e-mail and mail, postage prepaid,
on the following counsel for the United States:

1

